                                                            Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General

Subject:   INFORMATION: High Speed Rail Forecasting                   Date:    January 4, 2010
           Best Practices
           Project No. 10U3009C000



  From:    Mitchell Behm                                            Reply to   JA-50
                                                                    Attn of:
           Acting Assistant Inspector General for Amtrak,
             High Speed Rail and Economic Analysis

    To:    Federal Railroad Administrator

           In the United States, Federal involvement in the development of high-speed and/or
           intercity passenger rail (HSR and IPR) has traditionally been very limited. More
           recently, however, there has been a distinct change in policy with the
           announcement of the “High-Speed Rail Vision” by President Obama as well as the
           availability of significant funding for such developments under the recently
           enacted Passenger Rail Investment and Improvement Act (PRIIA), and American
           Recovery and Reinvestment Act (ARRA). The Federal Railroad Administration
           (FRA) has already received many applications and will soon begin granting funds
           for a variety of HSR/IPR projects. It is of critical importance that the FRA ensure
           that the Federal investments are directed to the most worthy projects.

           The economic and financial viability of any HSR and IPR project depends
           importantly on three factors – the expected levels of ridership and revenue, costs,
           and the associated public benefits. The uncertainties of the valuations of these
           factors advanced by project sponsors make it difficult for decision makers to
           ascertain the viability of the projects and to prioritize competing proposals. FRA
           will need to be able to identify high-quality methods for assessing these factors
           when implementing the high-speed rail program.

           The objectives of this evaluation are to: (1) assess the strengths and weaknesses of
           various methodologies used to develop HSR and IPR ridership and revenue
           forecasts, cost estimates and public benefits valuations; and (2) identify best
           practices in the preparation of these forecasts.
The Program Director for this evaluation is Betty Krier. If you have any questions
or need additional information, please call me at (202) 366-1995, or Ms. Krier at
(202) 366-1422.

                                        #

cc:   Audit Liaison, OST, M-1
      Audit Liaison, FRA, RAD-43
